     Department of Homeland Security




               FEMA Hazard Mitigation Grant
                 Funds Awarded to Rebuild
           Northwest Florida, Pensacola, Florida




DA-12-01                                           November 2011

                                                             Office ofInspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                                   NOV     8 2011


MEMORANDUM FOR:                Major P. (Phil) May
                               Regional Administrator, Region IV
                               Ft::deral Emergency Management Agency
                          ,0 ---;;L~/~m:Jigk~
FROM:                     fu   Matt Jadacki
                     ~-        Assistant Inspector General
                               Office of Emergency Management Oversight

SUBJECT:                       FEMA Hazard Mitigation Grant Funds Awarded to
                               Rebuild Northwest Florida, Pensacola, Florida
                               FEMA Disaster Numbers 1539, 1545, 1551, 1561, 1595, and 1602
                               Audit Report Number DA-12-01

We audited Hazard Mitigation Grant Program (program) funds awarded to Rebuild Northwest
Florida (Rebuild), Pensacola, Florida (FIPS Code: 003-U2FBB). The audit objective was to
determine whether Rebuild accounted for and expended Federal Emergency Management
Agency (FEMA) program funds according to federal regulations and FEMA guidelines.

The Hazard Mitigation Grant Program, authorized under Section 404 of the Robert T Stafford
Disaster Reliefand Emergency Assistance Act, provides grants to state, local, and tribal
governments as well as eligible nonprofit organizations for long-term hazard mitigation
measures following a major disaster declaration. The purpose of the program is to reduce the
loss of injury and damage to people and property against potential disaster events.

As of December 31, 2010, Rebuild received grant awards totaling $37.6 million under six
Florida disaster declarations. The awards were provided under nine award agreements (see
Exhibit, Schedule of Agreements Audited) by the Florida Division of Emergency Management
(State), a FEMA grantee. The awards provided 75% FEMA funding to (1) wind retrofit low- and
moderate-income homes in various locations throughout Escambia and Santa Rosa counties, and
(2) install transfer switches to backup generator power systems to at least 28 domestic abuse
centers within Florida. As of December 31, 2010, Rebuild had retrofitted more than 4,400
homes and installed transfer switches at 19 domestic abuse centers.

We reviewed costs totaling $32 million under the nine agreements-$31,832,949 for wind
retrofitting and $178,843 for installing electric transfer switches to domestic shelters. The audit
covered the period from September 7, 2006, to December 31, 2010. During this period, Rebuild
received $27 million1 of FEMA funds under the nine agreements. At the time of our audit, the
work was in various stages of completion and Rebuild had not submitted final expenditures to
the state.

We conducted this performance audit pursuant to the authority of the Inspector General Act of
1978, as amended, and according to generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based upon our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based upon our audit objective. We conducted this audit according to the statutes, regulations,
and FEMA policies and guidelines in effect at the time of the disasters.

We reviewed Rebuild’s contracting policies and procedures; reviewed samples of judgmentally
selected project costs (generally based on dollar value); interviewed Rebuild, State, and FEMA
personnel; reviewed applicable federal grant requirements, regulations, and FEMA guidelines;
and performed other procedures considered necessary to accomplish our objective. We did not
assess the adequacy of Rebuild’s internal controls applicable to its grant activities because it was
not necessary to accomplish our objective. However, we gained an understanding of Rebuild’s
method of accounting for grant costs and its policies and procedures for administering the
activities provided for under the FEMA awards.


                                               BACKGROUND

Rebuild was formed in November 2004 as a private-not-for profit organization in response to
Hurricane Ivan, which struck Florida on September 16, 2004. Rebuild grew from a grassroots
effort by a core group of individuals who saw a definitive need to “rebuild” the communities of
Escambia and Santa Rosa counties following the devastation of Hurricane Ivan. This effort
included private citizens, not-for-profit organizations, interfaith communities, government
entities, and businesses, which assisted individual and families in restoring their lives by
rebuilding and fortifying their homes. Money received from donations, concerts, and State
grants provided Rebuild’s original funding. In 2006, Rebuild applied for FEMA hazard
mitigation grants as part of Escambia and Santa Rosa counties’ local mitigation strategy plan.


                                            RESULTS OF AUDIT

Rebuild did not fully comply with federal post-award grant requirements when procuring
services under the awards, which resulted in excessive contract charges of $878,200 (federal
share $658,650). Additionally, Rebuild did not maintain proper cash management procedures to
minimize the time elapsing between the receipt of advances and the disbursement of those funds,
and did not maintain the advances in an interest-bearing account as required. Also, the State did
not consolidate working capital advances and did not analyze Rebuild’s cash needs before
disbursing the advances. Lastly, certain homes modified according to the wind retrofit measures
designed by Rebuild’s engineer of record may not be able to withstand a wind speed of 130
miles per hour, as required by the grant awards.
1
    This amount includes $2,831,918 of advanced funds held as of December 31, 2010.
                                                         2

Finding A: Contracting Procedures

Rebuild did not fully comply with federal administrative grant requirements when awarding
contract work totaling $2.7 million. As a result, we concluded that $878,200 of the charges were
excessive. Federal grant requirements, codified at Code of Federal Regulations (CFR) Title 2,
Section 215 require, among other things, that—

       All procurement transactions shall be conducted in a manner to provide, to the maximum
       extent practical, open and free competition. (2 CFR 215.43)
       Some form of cost or price analysis shall be made and documented in the procurement
       files in connection with every procurement action. (2 CFR 215.45)
       Procurement files for purchases in excess of the small purchase threshold shall include, at
       a minimum, (a) basis for contractor selection; (b) justification for lack of competition
       when competitive bid or offers are not obtained; and (c) basis for award cost or price.
       (2 CFR 215.46)
       Positive efforts shall be made to use small businesses, minority-owned firms, and
       women’s business enterprises, whenever possible. (2 CFR 215.44(b))

In October 2006, Rebuild solicited bids for construction management services to oversee the
wind retrofit of homes by construction contractors. Rebuild advertised the request for proposal
(RFP) for 2 weeks in one online business magazine (ONVIA). No other sources such as local
newspapers or other local media were used to advertise the contract work. Rebuild received only
one proposal in response to the RFP. In November 2006, Rebuild awarded a 2-year contract to
the sole bidder for a fixed-fee price of $280 per house with an option to extend the contract for
two 1-year periods. Rebuild did not conduct a price or cost analysis to determine the
reasonableness of the contractor’s proposed price. Further, the post-award procurement process
did not ensure open and free competition because the contracting opportunity was not publicized,
to the extent practical, to ensure that all sources, including small businesses, minority-owned
firms, and women’s business enterprises, had an opportunity to compete for the contract.

In May 2007, after completing 65 houses, the contractor requested a price increase of more than
120%, from $280 to $620 per house. Rebuild approved the price increase and began reimbursing
the contractor the higher amount. According to the contractor, the price increase was necessary
because of costs associated with paying subcontractors; site visit follow-up, which required two
or three visits per home to ensure that the work was satisfactory; obtaining approval from each
homeowner upon completion of the projects; employee drug testing; and so on. However, the
procurement files did not contain any documentation such as a cost/price analysis or other
justification for the price increase. Further, we reviewed the RFP and the contractor’s bid
documentation and disagree with the contractor’s assertion. The scope of work listed in the RFP
and contractor’s original price quote of $280 per house agreed with the work that the contractor
performed in fulfilling contractual obligations for the initial 65 houses.

FEMA identified similar post-award procurement issues during a monitoring review conducted
in late 2009. In December 2010, Rebuild rebid the construction management services to comply
with federal grant requirements in response to the corrective action plan developed from
                                                3

FEMA’s review. Under the rebid process, Rebuild received 11 proposals from the RFP. Two of
the proposals were deemed nonresponsive, and three proposals ($420, $580, and $945 per house)
were accepted. Rebuild negotiated the $945 proposal down to $580 during the negotiation
process. Upon completion of the negotiation process, Rebuild awarded the management services
work to three contractors, agreeing to pay one contractor $420 per house and the other two
contractors $580 per house.

According to 2 CFR 230, Cost Principles for Non-Profit Organizations, appendix A, section
A.3., a cost is reasonable “if, in its nature or amount, it does not exceed that which would be
incurred by a prudent person under the circumstances prevailing at the time the decision was
made to incur the costs.” In determining the reasonableness of a given cost, consideration shall
be given to, among other things, the “restraints or requirements imposed by such factors as
generally accepted sound business practices, arms-length bargaining, federal and state laws and
regulations, and terms and conditions of the award.”

Rebuild’s failure to comply with federal administrative grant requirements resulted in excessive
costs to the grant awards. The price of $620 per house paid under the contract from May 2007
through December 2010 would have been lower had Rebuild followed federal grant
requirements. This is supported by the fact that after Rebuild rebid the contract work in
December 2010 to fully comply with federal grant requirements, several bids were received from
responsive, qualified contractors that lowered the price to $420 and $580 per house. From May
2007 to December 2010, Rebuild claimed a total of $2,722,420 for contract management services
related to the wind retrofitting of 4,391 houses at a price of $620 per house. We question
$878,200 of the charges as excessive, as shown in table 1, because Rebuild did not take prudent
steps to obtain the best possible price for the services.

                             Table 1. Excessive Contract Charges
                                            Completed        Price increase
                          Contract         Projects After   ($420 – $620 =      Amount
          Disaster      Agreement No.      Price Increase        $200)         Questioned
          Charlie            1539-171-R                132              $200      $ 26,400
          Charlie            1539-172-R                 56               200        11,200
          Frances            1545-187-R                  2               200           400
           Ivan               1551-12-R              3,513               200      702,600
           Ivan               1551-32-R                111               200        22,200
          Jeanne             1561-172-R                144               200        28,800
          Dennis             1595-030-R                360               200        72,000
          Katrina             1602-31-R                 73               200        14,600
           Total                                     4,391              $200     $878,200

Rebuild’s Response. Rebuild officials disagreed with the finding. They said that the $620 per
house construction management fee was reasonable because the scope of services actually
performed by the contractor far exceeded the scope set forth in both the original RFP and the
contractor’s November 2006 proposal. They said that at the time of the original RFP in October
2006, it was unclear what the construction management requirements were and what the proper
compensation should be. Rebuild and the contractor wanted to expedite the process, so they
verbally agreed to modify the fee, after completion of several projects, to cover any reasonable
additional scope modifications. Rebuild officials also said that, regrettably, the change in scope
of services and justification of the increase were not well documented.
                                                 4

OIG Response. We disagree. Rebuild did not fully comply with federal post-award grant
requirements and, as a result, did not obtain the best possible price for the contracted services.
Further, the procurement files contained no documentation to support the price increase.
Therefore, our position remains unchanged.

Finding B: Cash Management

The State did not consolidate working capital advances and did not analyze Rebuild’s cash needs
before disbursing advances. Additionally, Rebuild did not maintain proper cash management
procedures to minimize the time elapsing between the receipt of advances and the disbursement
of those funds, and did not maintain the advances in an interest-bearing account as required.

According to 2 CFR 215.22, recipients are to be paid in advance provided they maintain or
demonstrate the willingness to maintain written procedures that minimize the time elapsing
between the transfer of funds and disbursement by the recipients. Cash advances to a recipient
organization shall be limited to the minimum amounts needed and be timed to be in accordance
with the actual, immediate cash requirements of the recipient organization in carrying out the
purpose of the approved program or project. The timing and amount of cash advances shall be as
close as is administratively feasible to the actual disbursements by the recipient organization for
direct program or project costs and the proportionate share of any allowable indirect costs.
Further, advances shall be consolidated to cover anticipated cash needs for all awards made by
the federal awarding agency.

Federal regulation 2 CFR 215.22(f) also states—

       If a recipient cannot meet the criteria for advance payments and the Federal awarding
       agency has determined that reimbursement is not feasible because the recipient lacks
       sufficient working capital, the Federal awarding agency may provide cash on a working
       capital basis. Under this procedure, the Federal awarding agency shall advance cash to
       the recipient to cover its estimated disbursement needs for an initial period generally
       geared to the awardee’s disbursing cycle. Thereafter, the awarding agency shall
       reimburse the recipient for its actual cash disbursements.

The State routinely provided working capital cash advances to Rebuild when the award
agreements were approved. Rebuild did not first exhaust those advanced funds before
submitting reimbursements requests to the State. As a result, Rebuild consistently held large
amounts of cash that exceeded its immediate needs. During our audit period of September 2006
to December 2010, Rebuild’s monthly bank balance averaged $1.4 million; as of December 31,
2010, it had over $2.8 million of cash on hand.

In addition, Rebuild maintained the advances in a non-interest-bearing account. According to
2 CFR 215.22(k), a recipient is required to maintain advances of federal funds in an interest-
bearing account, unless—

   1. The recipient receives less than $120,000 in federal awards per year;


                                                  5

   2.	 The best reasonably available interest-bearing account would not likely earn interest over
       $250 per year on federal cash balances; and
   3.	 The depository would require an average or minimum balance so high that it would not
       be feasible within the expected total cash resources.

We also noted that the State could improve the time it takes to process Rebuild’s reimbursement
requests. For example, during the 6-month period of February to July 2009, it took the State
between 15 to 157 days to process Rebuild’s reimbursement requests. The State could reduce
working capital advances if it properly analyzed Rebuilds cash needs and provided prompt
reimbursements of expenditures.

Rebuild’s Response. Rebuild officials said that the State is familiar with its cash flow constraints
and needs and is much more knowledgeable of the requirements for working capital advances.
Rebuild plans to work with the State to manage the working capital advances better.

Finding C: Wind Retrofit Measures

Certain homes modified according to the wind retrofit measures designed by Rebuild’s engineer
of record may not be able to withstand a wind speed of 130 miles per hour, as required by the
grant awards. In late December 2008 and early January 2009, FEMA conducted a review of
Rebuild’s contractor mitigation practices and identified several issues that needed to be
remedied. One concern was that the engineer’s designs for gable end bracing may not provide
the intended resistance to a wind speed of at least 130 miles per hour. In July 2010, FEMA
approved a corrective action plan submitted by the State to address all issues identified in the
review. In the plan, the State provided assurance that the gable end bracing for each home was
individually engineered and designed to meet the design parameters of “130 miles per hour wind
speed, 3 second gusts, Building Category II, Exposure C, or higher if required.” FEMA accepted
the State’s response without having the engineer provide any structural analysis and calculations
to support the designs.

During our fieldwork, we noted that hazard mitigation representatives within the FEMA Florida
Recovery Office continued to have concerns that the design specifications for gable end bracing
for homes over one story in height, or with a gable end wall width of more than 20 feet, were
deficient and would not withstand wind loads certified by the engineer. Their concerns are based
on a structural analysis performed on the engineer’s design specifications by an independent
engineer at the request of a FEMA representative. As of June 28, 2011, neither FEMA nor the
State had taken action to look into the design concerns raised by the independent engineer. If the
independent engineer’s conclusions are based on sound analysis, more than 1,500 homes
outfitted with the Rebuild’s engineer’s design specifications would be affected.

Rebuild’s Response. Rebuild officials disagreed with this finding, saying that they had not seen
the independent engineer’s report on their engineer’s design specifications. They said that the
retrofit measures had been investigated by FEMA, expert engineers, building officials, the
Florida Building Commission, and other construction professionals.




                                                 6

                                   RECOMMENDATIONS


We recommend that the Regional Administrator, FEMA Region IV:

   Recommendation #1: Disallow $878,200 (federal share $658,650) of excessive contract
   costs that are ineligible (finding A).

   Recommendation #2: Instruct Rebuild to develop written procedures to minimize the time
   elapsing between receipt of federal funds and the disbursement of those funds, and instruct
   the State to reimburse Rebuild in a timely manner (finding B).

   Recommendation #3: Instruct the State to review the amount of working capital advances
   needed by Rebuild and to consolidate such advances whenever possible (finding B).

   Recommendation #4: Instruct the State to require Rebuild to keep advanced funds in an
   interest-bearing account (finding B).

   Recommendation #5: Impute interest that would have been earned on the advanced funds,
   and instruct Rebuild to remit the interest to FEMA to be put to better use (finding B).

   Recommendation #6: Instruct the State to conduct an independent assessment of the
   engineer of record’s design specifications for gable end bracing for homes over one story in
   height, or with a gable end wall width of more than 20 feet, to determine if they are adequate
   to withstand wind loads certified by Rebuild’s engineer (finding C).

   Recommendation #7: Instruct Rebuild to implement corrective measures on homes where
   any gable end design specifications are identified as deficient during the independent
   assessment conducted as a result of Recommendation #6 (finding C).


            DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with Rebuild, State, and FEMA officials during our audit. We
also provided a written summary of our findings and recommendations in advance to these
officials and discussed them at the exit conference held on June 28, 2011. Rebuild officials
disagreed with all of our findings. Their comments, where appropriate, were incorporated into
the body of the report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation

                                               7

responsibility over the Department of Homeland Security. To promote transparency, this report
will be posted to our website, with the exception of sensitive information identified by your
office. Significant contributors to this report were David Kimble, Adrianne Bryant,
Mary Stoneham, John Schmidt, and Amos Dienye.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
David Kimble at (404) 832-6702.

cc:    	 dministrator, FEMA
       A
       Executive Director, FEMA Florida Recovery Office
       Audit Liaison, FEMA Region IV
       Audit Liaison, FEMA (Job Code G-10-062)
       Audit Liaison, DHS




                                               8

                                                                                  EXHIBIT

                    Schedule of Agreements Audited 

                      Rebuild Northwest Florida 

                September 7, 2006, to December 31, 2010 

   FEMA Disaster Numbers 1539, 1545, 1551, 1561, 1595, and 1602-DR-FL 

                      Contract
                    Agreement    Disaster         Date of       Award        Amount
     Disaster         Number.      No.           Disaster       Amount      Questioned
Hurricane Charley   1539-171-R    1539       August 2004       $2,000,000        $26,400
Hurricane Charley   1539-172-R    1539       August 2004        2,000,000         11,200
Hurricane Frances   1545-187-R    1545       September 2004       100,000            400
 Hurricane Ivan     1551-12-R     1551       September 2004    26,671,097        702,600
 Hurricane Ivan       1551-32     1551       September 2004       800,000         22,200
Hurricane Jeanne    1561-172-R    1561       September 2004     2,000,000         28,800
Hurricane Dennis     1595-24-F    1595       July 2005            651,837              -
Hurricane Dennis    1595-030-R    1595       July 2005          2,797,305         72,000
Hurricane Katrina   1602-31-R     1602       August 2005          553,209         14,600
      Total                                                   $37,573,448      $878,200




                                            9

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, e-mail your request to our
OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov, or visit our OIG
websites at www.dhs.gov/oig or www.oig.dhs.gov.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
